NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021
DERRICK BAER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

CERTIFICATION OF WORD COUNT

Timothy M. Donohue, Esq. hereby certifies as follows:
1.

I am a partner at Arleo & Donohue, LLC and am a member of the

Supreme Court of United States.
2.

The Petition for a Writ of Certiorari and accompanying Appendix

electronically filed on May 14, 2021, have been scanned with Windows Defender
Antivirus Version 1.319.981.0 and no virus was detected.

3.

The Petition complies with the type-volume limitations contained in

Supreme Court Rule 33.1(h), as it contains no more than 9,000 words, excluding the
parts of the Petition exempted by 32(f).
4.

The foregoing is true and correct to the best of my knowledge and

information. I am aware that if any of the foregoing is willfully false, I am subject to
sanctions.
Respectfully submitted,
/s/ Timothy M. Donohue
Timothy M. Donohue, Esq.
Arleo & Donohue, LLC
622 Eagle Rock Avenue
West Orange, NJ 07052
Tel.: (973) 736-8660
E-mail: Tim.Donohue@arleodonohue.com
Attorneys for Petitioner Derrick Baer
Dated: May 14, 2021

